<html>
<title> - MODERNIZING THE NATIONAL PARK SERVICE CONCESSION PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







        MODERNIZING THE NATIONAL PARK SERVICE CONCESSION PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                              THE INTERIOR

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2015

                               __________

                           Serial No. 114-53

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-790 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
         William McGrath, Interior Subcommittee Staff Director
            Ryan Hambleton, Senior Professional Staff Member
                        Melissa Beaumont, Clerk
                      Subcommittee on the Interior

                  Cynthia M. Lummis, Wyoming, Chairman
Ken Buck, Colorado, Vice Chair       Brenda L. Lawrence, Michigan 
Paul A. Gosar, Arizona                   Ranking Member
Blake Farenthold, Texas              Matt Cartwright, Pennsylvania
Steve Russell, Oklahoma              Stacey E. Plaskett, Virgin Islands
Gary J. Palmer, Alabama

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 23, 2015....................................     1

                               WITNESSES

Ms. Lena McDowall, Chief Financial Officer, National Park 
  Service, U.S. Department of the Interior
    Oral Statement...............................................     4
    Written Statement............................................     6
Mr. Terry MacRae, Chairman and Chief Executive Officer, 
  Hornblower, Inc.
    Oral Statement...............................................     9
    Written Statement............................................    11
Mr. Alex Klein, Vice President and General Manager, Grand Teton 
  Lodge Company and Flagg Ranch Company
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Christopher C. Belland, Chief Executive Officer, Historic 
  Tours of America
    Oral Statement...............................................    24
    Written Statement............................................    27

                                APPENDIX

Statement by John Garder, Director of Budget and Appropriations 
  at the National Parks Conservation Association.................    44
Statement by David Woodside, President of the Acadia Corporation.    50
Statement by John King, Regional Vice President of Forever 
  Resorts........................................................    53
Statement by Pamela Pitts, Secretary of the California Parks 
  Company........................................................    55
Statement by Tim Rout, CEO of Dyno Ventures......................    57
Statement of Forever Resorts.....................................    59
Statement of Gettysburg Tours and TRF Concession Specialists of 
  Florida........................................................    62
Responses from NPS to questions for the record...................    63

 
        MODERNIZING THE NATIONAL PARK SERVICE CONCESSION PROGRAM

                              ----------                              


                        Thursday, July 23, 2015

                  House of Representatives,
                          Subcommittee on Interior,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:07 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Cynthia M. 
Lummis [chairwoman of the subcommittee] presiding.
    Present: Representatives Lummis, Gosar, Buck, Palmer, and 
Lawrence.
    Also Present: Representative Norton.
    Mrs. Lummis. The Subcommittee on the Interior will come to 
order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Well, good morning. We are so happy to have you. This 
hearing is going to be forward-looking and informative and 
interesting, and I am pleased you are here.
    The Subcommittee on the Interior today will be examining 
the concession program at the National Park Service. As we 
approach next year's 100th anniversary of the National Park 
Service, we are in an ideal position to look at how this 
agency, which is custodian of our greatest natural resources, 
is functioning.
    Stephen Mather, the first Director of the National Park 
Service, once said, ``Scenery is a hollow enjoyment to the 
tourist who sets out in the morning after an indigestible 
breakfast and a fitful night's sleep on an impossible bed.'' 
That sounds like that statement was made after personal 
experience. Director Mather's sentiment, though, is spot-on. 
For the vast majority of Americans to enjoy these majestic 
attractions that belong to them, they need food and lodging and 
other amenities.
    The Park Service has a long history of working with private 
companies to make sure that visitors receive the concession 
services they need. In fact, concessionaires have provided 
these services and promoted the parks since Yellowstone 
National Park in my home State of Wyoming was designated the 
Nation's first national park, back in 1872.
    Oddly, though, in our parks, visitation is stagnating. 
National park attendance has not significantly increased over 
the last 25 years--this is nationwide rather than a park-by-
park basis--despite a national population increase of over 30 
percent, a spike in international visitors, and the addition of 
dozens of new park units.
    Currently, the typical park visitor is a baby-boomer. 
Millennials and younger visitors are not coming to the parks in 
the numbers that we expected. Much of this can be traced to the 
increase in competition from other tourism opportunities and 
the Park Service's failure, perhaps, to keep up with the 
changing tastes of new generations.
    Concessioners can serve a pivotal role in reversing this. 
Our national parks and their concessioners must keep up with 
changing times. Younger visitors and contemporary families want 
access to tech amenities, such as Internet access and WiFi. 
They want comfortable and modern places to stay.
    Concessioners want to provide these services, and we, both 
in Congress and at the National Park Service, need to make sure 
that they are able to offer these things. More visitors using 
more services results in more money for concessioners and more 
money for the National Park Service.
    Today, we will be receiving testimony from three 
concessioners about ways that we can update and modernize the 
park visiting experience. In addition to these witnesses 
present, we also have received written testimony from half a 
dozen other concessioners, representing park operations from 
all over the country.
    Now, the issues that were brought up include, first of all, 
the complexity of the Park Service bid applications. For 
example, the recently considered Denali National Park 
prospectus was 1,629 pages long. I mean, that is how long 
legislation is around here that affects 20 percent of our 
economy, that is just sweepingly game-changing. One small 
single park concession company spent over 2,500 company 
management hours and more than $90,000 preparing their 
application.
    Expanding the operating season is another issue that was 
identified. In some cases, lodging, such as camp grounds, is 
very popular at certain parks and actually sells out. Though 
these parks are open year-round, their concessions operations 
are seasonal. Grand Canyon National Park, for example, is 
affected by this circumstance.
    Another is a lack of a rating system. The Park Service does 
not employ any way in which to recognize excellence among its 
concessioners. California, for instance, uses an awards bonus 
point system in State park bid submittals for achieving 
extraordinary ratings 3 years in a row. Perhaps a good model 
for us to look at.
    There are many other ways we can modernize the National 
Park concession system, and I hope we can talk about many of 
these today. I very much look forward to the hearing, and I 
want to hear suggestions on your ideas for improving National 
Park Service concession services and visitor experiences.
    We are very fortunate also today to have Ms. Lena McDowall, 
the Chief Financial Officer for the National Park Service, with 
us here this morning.
    Welcome. We thank you and all of our witnesses for taking 
the time to appear.
    I now recognize Mrs. Lawrence, ranking member of the 
Subcommittee on the Interior, for her opening statement.
    Mrs. Lawrence. Good morning. I thank all the witnesses who 
are here. And, Madam Chair, I really thank you for holding this 
important hearing.
    I appreciate the National Park Service's protection and 
care of our Nation's cherished natural and cultural resources 
and for the important educational or recreational opportunities 
that they provide for all Americans. As the Park Service 
prepares for its centennial celebration in 2016, we must ensure 
that the very best services are provided for the 280 million 
visitors that our national parks attract each year.
    Vendors play a key role in providing visitor services. They 
offer a wide range of recreational and retail services, while 
helping to generate more than $1.2 billion annually in revenue 
for the Federal Government. Vendors also employ--and this is an 
important key--more than 25,000 workers and are major drivers 
in the growth of communities that surround parks.
    I understand that the public is demanding more recreational 
and cultural opportunities during their visits to the national 
parks. I also understand the vendors are ready, willing, and 
able to provide these additional visitor services, but they 
have encountered some barriers.
    Today we will examine some of the challenges faced by the 
National Park Service and vendors in providing the best visitor 
experience to our parks. These challenges include a rigid 
contracting process, contracts which create negative cash flow 
for vendors, and the Park Service's failure to meet public 
demand for more services.
    Although the Park Service has made great improvements in 
its contracting processes in recent years, more work is needed 
and more work should be done. We can always work to improve the 
contracting process, with greater cooperation between the 
government and the industry. And I look forward to hearing from 
our witnesses here today as we explore possible solutions that 
can drive progress on this issue and help create a memorable 
centennial celebration that all Americans can take pride in and 
enjoy.
    I yield back my time, Madam Chair.
    Mrs. Lummis. I thank the ranking member.
    And the chair notes the presence of the gentlelady of the 
District of Columbia. Thank you for your interest. We welcome 
you to participate in today's hearing. Some of our most notable 
and recognizable National Park Service properties are right 
here under your nose, and we appreciate your stewardship and 
fine work on their behalf.
    Ms. Norton. Thank you.
    Mrs. Lummis. Thank you.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    Mrs. Lummis. We will now recognize our panel of witnesses.
    First of all, once again, I am very pleased to welcome Ms. 
Lena McDowall, Chief Financial Officer of the National Park 
Service at the U.S. Department of the Interior; Mr. Terry 
MacRae, chairman and chief executive officer of Hornblower 
Tours; and Mr. Alex Klein, vice president and general manager 
of the Grand Teton Lodge Company and Flagg Ranch Company, one 
of my personal favorites; and Mr. Chris Belland, chairman and 
chief executive officer of Historic Tours of America.
    Welcome, one and all.
    Please rise and raise your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Let the record show they answered in the affirmative.
    And thank you, and please be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire statement, written 
statement, will be entered into the record, but we will keep 
you pretty close to a 5-minute clock during your prepared 
remarks as you share them with us.
    The chair recognizes Ms. McDowall for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF LENA MCDOWALL

    Ms. McDowall. Thank you.
    Madam Chairman and members of the committee, thank you for 
the opportunity to appear before you at this hearing on 
modernizing the National Park Service concession program.
    In 2016, the National Park Service will celebrate 100 years 
as the steward of the Nation's most cherished national and 
cultural treasures. We are actively preparing for our second 
century and working hard to inspire the next generation of 
visitors to experience and value their public lands. 
Concessions will play a critical role in providing food, 
lodging, and recreational services to those visitors.
    Today, concession contractors provide an array of services 
across the National Park System, from operating iconic lodges 
to guiding climbers and hunters to providing ferry 
transportation and children's educational programs. The 
National Park Service administers around 500 contracts in over 
100 parks. These contracts range from $100,000 to over $140 
million in annual gross receipts and currently generate more 
than $1 billion in annual gross revenue for concessioners.
    The concessions program has been defined by two major laws: 
the Concessions Policy Act of 1965 and the National Park 
Service Concessions Management Improvement Act of 1998.
    The 1965 act provided protections for incumbent 
concessioners, including a preference in the renewal of their 
contracts, contract terms of up to 30 years, and possessory 
interest, which recognized a right of compensation for 
improvements made by concessioners.
    By the early 1990s, Congress recognized that the concession 
system required reform. In many cases, visitor services lacked 
quality, facilities were not being maintained, and prices were 
higher than comparable goods and services outside the park.
    Most observers attributed these problems to a system that 
essentially provided a permanent contract to any concessioner 
that wished to continue operating. The desire to transform the 
concessions program into a more competitive, business-like 
operation was the driving force behind the 1998 act.
    The 1998 act repealed the preference in renewal, providing 
preference for only small concession operations; shortened the 
maximum contract to 20 years; and replaced possessory interest 
with leasehold surrender interest. The law also called upon the 
National Park Service to ensure reasonable prices for visitors, 
to implement more contemporary business practices, and ensure a 
fair return to the government in the form of franchise fees.
    Over the last 14 years, we have taken significant steps to 
meet those objectives, and there have been many successes. We 
have significantly increased franchise fee revenue, reduced the 
amount of deferred maintenance related to concessions 
facilities, used new contract requirements to better maintain 
concessions facilities at many parks, and reduced the number of 
contracts operating under continuations or extensions from 
nearly half the contract inventory in 2002 to about 17 percent 
today.
    From 2004 to 2014, there has been substantial growth in 
both concession gross receipts and franchise fee revenue. 
Concessioner gross receipts have grown from about $805 million 
to $1.3 billion a year, and franchise fees have grown from 
about $27 million to over $85 million. The increases are a 
result of more professional financial analysis; better business 
opportunities for concessioners; and higher bids from 
concessioners, as competition has spurred many prospective 
vendors to bid higher than the minimum required franchise fee.
    The more professional prospectus development process and 
more competition for concession contracts have also resulted in 
benefits for visitors. A few highlights include new facilities 
at Yellowstone, Badlands, Kings Canyon, and Hawaii Volcanoes 
National Parks; increased options for overnight accommodations 
by adding camper cabins, which combine camping and lodging, at 
John D. Rockefeller Memorial Parkway and Lassen Volcanic 
National Park. It has also resulted in a better variety of food 
and beverage offerings and retail options, featuring locally 
produced foods and regional handcrafted items; upgraded 
furnishings at many facilities; and frequent incorporation of 
park interpretive themes and messages throughout concession 
operations.
    While we have made progress since the implementation of the 
1998 law, much work remains. As the National Park Service 
enters its second century, we are exploring ideas to improve 
facilities and attract new audiences by providing a broader 
array of visitor services and by expanding the number of 
companies interested in bidding on commercial services 
contracts.
    The National Park Service will continue to pursue ways to 
modernize and improve the program and is open to new ideas that 
would provide us with an opportunity to better meet our 
mission.
    Madam Chairman, this concludes my testimony. I would be 
happy to answer any questions you might have.
    [Prepared statement of Ms. McDowall follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mrs. Lummis. I thank the gentlelady.
    Mr. MacRae, you are now recognized for 5 minutes.

                   STATEMENT OF TERRY MACRAE

    Mr. MacRae. Thank you, Madam Chairman, members. The 
National Park Hospitality Association is pleased to offer 
testimony today regarding the great opportunity we have to 
continue providing visitor experiences in our amazing national 
parks.
    My name is Terry MacRae, and I serve as the volunteer 
chairman of the National Park Hospitality Association, which is 
the organization that has members providing more than $1 
billion of visitor services within national park units.
    Just a little bit about my company. We started as a 
concessioner in 2006 with the service to Alcatraz Island; added 
the Statue of Liberty and Ellis Island Immigration Museum in 
2008. Since then, we have served over 45 million visitors to 
those 2 parks. We use a fleet of 15 different vessels and 
provide 250 direct jobs, many to professional mariners. In 
2014, we paid over $19 million in franchise fees to the 
National Park Service.
    Hornblower and the other members of NPHA are grateful every 
day to be concession partners of the National Park Service. We 
have some amazing member companies that have have super 
promotional capabilities, contemporary management practices--
all of which are intended to produce benefit to those companies 
but also more financial resources for the parks and, of course, 
great visitor services.
    My comments also reflect today the respect we have for the 
employees and leaders of the National Park Service. They truly 
have a complicated, challenging job to manage some of the 
greatest natural and cultural assets anywhere and keeping these 
assets relevant to the American public. And, by and large, they 
do an amazing job, considering their challenges.
    America's National Parks are a unifying legacy. With the 
centennial coming along, it's really an important time in the 
parks' history. And the parks, frankly, should be nonpartisan. 
They shouldn't be R's and D's and I's visiting parks. They are 
all Americans.
    The fact that the centennial is here shouldn't hide the 
reality that we have a few challenges within the parks. There 
is the need for new resources and new strategies. But, frankly, 
even during the worst times and the Great Depression, the parks 
were able to advance and move forward. And so, today, I think 
some of that same vision is important to bring to bear.
    As the chair pointed out, visitation in the parks has 
really been unchanged for the last 25 years, particularly 
considering that the population has grown and the number of new 
park units has been added. There's fewer visitor choices in the 
parks, in some cases. There should be more opportunities to 
provide those visitor services. And, frankly, considering the 
overall budget of about $3 billion--and less than $100 million 
of that comes from franchise fees paid by the visitors through 
the concessioners--it seems like there is a huge opportunity 
there.
    Concessioners pay almost $100 million in franchise fees, 
but there are certainly more ways that those can be improved. 
We have almost 25,000 employees working, serving about 100 
million visitors annually.
    So, many of the parks and lodges that people enjoy in the 
parks today were built by some of the first concessioners. The 
maintenance of those facilities is now a challenge. There's 
plenty of opportunity to consider how that should be done in 
the future.
    The Concession Act of 1998, I'm a poster child for that. We 
came along after that act, and we provided many of the benefits 
that Lena spoke about, arriving and working under a new system. 
But the fact of the matter is that the Concession Act needs a 
tune-up. After 15 years, there are some opportunities to make 
some fixes there to deal with things like LSI and other areas 
that need to be improved.
    You know, in fairness to the National Park Service, they 
have adjusted dramatically over the last 15 years to the new 
Concession Act, and they have built a strong new team of 
concession and business service leaders, and they are gathering 
more momentum and traction all the time.
    Efforts to promote the national parks are lagging, 
considering what a great opportunity that is. And, with the 
centennial, there is more and more opportunity to do that. By 
and large, a tune-up of the 1998 act that includes modernizing 
some of the business practices and adding the capability to 
promote the parks to the overall partnership between the 
concessioners and the Park Service is important.
    I'm going to introduce a great article here by National 
Geographic that talked about how good old marketing saved the 
national parks 100 years ago, when they were first trying to 
get traction.
    And, in our testimony, we have provided 10 important 
recommendations to try to advance the cause of both the 
concessioners and the National Park Service in serving the 
visitors.
    So I think that concludes my remarks, and I'm happy to 
answer questions and have discussion as appropriate. Thank you.
    [Prepared statement of Mr. MacRae follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
    Mrs. Lummis. Thank you, Mr. MacRae.
    I now recognize the gentleman from the beautiful, beloved 
State of Wyoming, Mr. Klein, for 5 minutes.

                    STATEMENT OF ALEX KLEIN

    Mr. Klein. Chairman Lummis, thank you. Members of the 
subcommittee, thank you for the opportunity to testify.
    My name is Alex Klein. I'm the vice president and general 
manager of Grand Teton Lodge Company and Flagg Ranch Company in 
the great State of Wyoming. I'm joined by representatives from 
Delaware North Company and Forever Resorts, who also operate in 
Wyoming.
    Gentlemen, thank you for joining me.
    We operate lodging, campgrounds, restaurants, retail 
outlets, gas stations, and other visitor activities in two 
national park sites. Many of these facilities were constructed 
or modernized by RockResorts shortly after John D. Rockefeller 
donated the land that is now part of Grand Teton National Park.
    We are fortunate to have an incredible group of National 
Park Service staff to work with every day. Park Superintendent 
David Vela is to be commended for his leadership. My comments 
today are in the spirit of the continued successful partnership 
with the National Park Service.
    There are three areas I would like to focus on: improving 
facilities and service, implementing modern business practices, 
and recognizing and rewarding outstanding concessioners.
    We strive to not only maintain our facilities and services 
but improve them where it makes sense. In campgrounds, we have 
made significant improvements, including better ADA 
accessibility, more electronic hookups, and the addition of 
bear boxes. In our lodging facilities, we have added high-speed 
Internet access in most locations.
    Just in the last year, at Jackson Lake Lodge, we have 
expanded food and beverage service through the addition of an 
outdoor kitchen, renovated 361 guest bathrooms--in the winter 
in Jackson Hole--and made other infrastructure improvements. 
Last month, we started providing guided kayak tours at our 
Colter Bay Village Marina.
    I have two recommendations that will encourage even more 
improvements of facilities and additional services. Firstly, 
contracts need to allow for more flexibility to address 
services and improvements not anticipated at the beginning of 
the contract term. Secondly, all parties would benefit from a 
simplified process for capital projects. This would lead to a 
better and more timely use of these funds.
    The price approval and standards evaluation process would 
also benefit from the implementation of modern business 
practices used in the hospitality industry. In Grand Teton 
National Park, we have worked with the National Park Service to 
pilot the use of modern revenue management strategies, such as 
a length-of-stay restriction, and are working on proposals to 
introduce even more modern yield management practices.
    Through our online comment card system, we receive realtime 
feedback from visitors. We share access to this system with the 
National Park Service in allowing them full review of all guest 
feedback. Web sites such as TripAdvisor also provide guest 
reviews that can be reviewed by consumers and park personnel 
alike.
    My recommendations to implement modern business practices 
include: consider whether or not the current NPS practice of 
standards and evaluation remains relevant with the wealth of 
other data available; and encourage the further testing of 
modern revenue management strategies used industrywide and 
consider market declaration pricing in parks where significant 
lodging is available in gateway communities.
    In the 60 years that we have operated in Grand Teton 
National Park, we feel our overall performance has been strong. 
We have provided high-quality visitor services, built a 
sustainable business, maintained strong community 
relationships, and partnered with the National Park Service. 
Unfortunately, this strong track record provides no assurance 
we will be successful in continuing our operations beyond our 
current contract.
    The current competitive process for concession contracts is 
imperfect. On one hand, the current process has done a good job 
of raising the bar for performance and challenges concessioners 
to operate more safely, more sustainably, and provide greater 
care to the assets. On the other hand, the unintended 
consequence has been further consolidation of concession 
contracts, less competition, and the reward of concession 
contracts to those that cannot only necessarily deliver the 
best operations but those that deliver the best proposal.
    I have three recommendations for the contract process: A 
system designed to reward those that do provide excellence in 
concession operations would benefit both the incumbent 
concessioners as well as the National Park Service. Such a 
system would encourage constant innovation and excellence in 
the performance of the contract. Longer contracts could provide 
the security of a return on investment where significant 
facility and infrastructure upgrades are required. And adding 
transparency wherever practicable. The current process lacks 
transparency and doesn't allow unsuccessful bidders to 
understand their perceived shortcomings.
    Thank you again for the opportunity to be here today. Thank 
you to the men and women of the National Park Service, who 
steward the parks on behalf of the American public and future 
generations. I'm happy to answer any questions you might have.
    [Prepared statement of Mr. Klein follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
    Mrs. Lummis. Thank you, Mr. Klein.
    The chair now recognizes Mr. Belland for 5 minutes.

              STATEMENT OF CHRISTOPHER C. BELLAND

    Mr. Belland. Madam Chair, distinguished members, ladies and 
gentlemen, by way of introduction, my name is Chris Belland. 
I'm the CEO of Historic Tours of America.
    We're the largest operator of themed vehicles in North 
America, hosting approximately 3 million guests each year, with 
operations in Key West, St. Augustine, Savannah, Washington, 
Boston, and San Diego, and most recently were awarded the 
contract for interpretive services in Arlington National 
Cemetery.
    We also operate 10 historic attractions, including, for the 
State of Florida, the Truman Little White House; Potter's Wax 
Museum, the first wax museum in the United States; the Boston 
Tea Party Ship and Museum; a $25 million recreation of 
Griffin's Wharf, celebrating the single-most important event 
leading to the American Revolution.
    More to the point, in concert with the founding owners, we 
have operated the ferry to the Dry Tortugas National Park in 
Fort Jefferson, which is 70 miles west of Key West, for a 
number of years and in 2010 were awarded the sole-service 
contract.
    Ken Burnscharacterized the National Park System as 
``America's best idea.'' I submit that the dedicated members of 
the National Park Service with whom I have been able to deal 
and their partner concessioners believe that.
    I had the opportunity to hear a speech by Director Jon 
Jarvis entitled ``Field Guide to American Values'' and came 
away convinced that the great parks of this country are the 
truest and most pure definitions of what makes us a great 
Nation.
    But the National Park Service is facing enormous 
challenges: There is a backlog of billions of dollars of 
deferred maintenance; the National Park Service is mired in 
well-intended but archaic rules of engagement with its 
concessioners; the NPS faces almost routine annual budget cuts; 
and the parks are fighting for relevance in the new age of 
technology.
    So we can gnash our teeth in despair or collectively 
embrace the wisdom of the Chinese proverb, ``The crisis is 
opportunity riding the dangerous wind.'' On the eve of the 
100th anniversary of the National Park Service, it is past time 
to seize the day. The concessioners represent hundreds of 
millions of dollars of revenue and tens of millions of dollars 
of potential infrastructure investments and are ready to join 
hands to do just that.
    Thank you for this opportunity to share for your 
consideration our individual and collective viewpoints, ideas, 
and hopes and dreams for the future.
    Our concession is bigger than most but certainly smaller 
than many. We will generate revenues this year between $9 
million and $10 million. But I'm here as a case study to shares 
some lessons we learned over the past 3 years concerning a 
request to amend our contract. If learned from, these lessons 
and observations might make all the difference, or not--for, as 
we know, those who will not learn from their mistakes are bound 
to repeat them.
    The Reader's Digest version of our background of our 
concession is: We were awarded the contract in November 2010. 
Previously, there were two operators, each allowed to carry 100 
passengers, for a total of 200 a day, paying the park a measly 
few hundred dollars for the privilege. Our contract required 
the production of a brand-new, state-of-the-art, high-speed 
ferry, at a cost of approximately $6.5 million, with Coast 
Guard certification to carry 250 passengers.
    Here is where it gets interesting. The general management 
plan called for a maximum daily visitation of 350 from all 
sources, such as our ferry, seaplanes, and private vessels. We 
were now limited to only 150 passengers a day. Why such a large 
vessel? To provide a commodious experience for passengers and 
to carry camping gear. Fair enough. But it became immediately 
evident that the daily visitation of 350 was never achieved. In 
short, there was excess capacity.
    Given our new ability to work with the National Park 
Service to market a product, we were confronted almost daily 
with standbys of over 20 people and some who didn't even show 
up. The market had spoken, and it was an ``aha'' moment. The GM 
capacity was not being met. We had the seats, and people wanted 
to go. Sounded good. Sounded good to us and also by the staff 
of the National Park Service.
    We made our initial ask for an increase of passengers of 25 
each day in February 2013 but were to find out the path of 
commonsense flexibility in these contracts was not an easy one.
    I'm a businessman and would not enter a contract, 
especially one for 10 years, to someone to manage my property 
without a tacit or explicit way to adjust the agreement. Things 
change. Fuel goes up, hurricanes come, BP spills oil, world 
economies and travels change. No, the National Park Service is 
not a business, but it is in business and needs to respond 
accordingly.
    The result of our request: After 20 months, it was 
approved, and, even though everyone assured me it was a good 
idea, there was just no mechanism to get it done. There was a 
loss of revenue, and perhaps as many as 10,000 people were 
denied the opportunity to see one of America's most unique and 
wonderful places.
    In just 7 months since getting permission, we paid the park 
an additional $117,000. More importantly, the National Park 
Service missions of public access and asset protection have 
been better served. And it was all done with the stroke of a 
pen.
    The takeaway is the National Park Service doesn't have to 
do anything. The parks will continue to be funded at some level 
of probable diminishing amounts, but the results will be a 
self-fulfilling prophecy of a downward spiral of failing 
infrastructure and loss of relevance.
    I don't speak for other concessioners, but I think what the 
National Park Service should do is build commonsense 
flexibility into these long-term agreements and drive the 
decisionmaking process down to the lowest level possible. The 
folks who run the parks know what needs to be done. Give them 
the responsibility and the authority. It's appropriate to quote 
Teddy Roosevelt, who said, ``Find the right person to do the 
job, then get out of their way.''
    Finally, I think that you should incentivize the good 
efforts of your concessioners and, frankly, your own people 
with a measurable format of performance and reward those 
efforts with contract extensions.
    Thank you for the opportunity to be stewards of these great 
assets. Thank you for your kind attention. And thank you for 
your service.
    [Prepared statement of Mr. Belland follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mrs. Lummis. Thank you, gentlemen and gentlelady.
    We will now follow with questions from the members. The 
chair will recognize herself first for 5 minutes.
    Ms. McDowall, have you heard some of these suggestions 
before from concessioners, the concerns about contracting and 
lack of contract flexibility and complexity of contracts? And 
can you respond to those, please?
    Ms. McDowall. I think many of the things that these 
gentlemen have mentioned we have heard from many concessioners 
on occasion, I think. Over the last number of years, we have 
worked within the existing law to try to deal with some of 
these challenges.
    I do think that there are some elements of the law, 
particularly when you look at contract rigidity, that are a 
result of not just Park Service process but are a result of the 
law. And I think the Park Service would agree that having more 
flexibility in the contract models would be of value.
    Mrs. Lummis. So you would work with the committee and its 
members to bring about some changes that would augment the 
flexibility of contracting?
    Ms. McDowall. I think the Park Service would be interested 
in exploring those opportunities.
    Mrs. Lummis. Thank you very much.
    The backlog is pretty significant at some of our park 
properties. I think, in aggregate, it is over $11 billion.
    Again, Ms. McDowall, are there ways in which concessioners 
could be part of a solution to address the backlog?
    Ms. McDowall. Our primary avenue for financing capital 
improvements for concession-managed assets is leasehold 
surrender interest.
    I do think there is interest on the part of concessioners 
in doing more capital improvements. I think the difficulty from 
the Park Service perspective is we are always looking at the 
financial feasibility of concessions contracts. The way that 
leasehold surrender interest works, the investment grows over 
the life of the contract. So, at the end of the contract, the 
amount that is owed on that contract has to be paid by the next 
incoming concessioner if another concessioner is chosen.
    So the Park Service is very careful about how much LSI it 
approves on a particular contract, in order to make sure we 
don't end up in a situation where a contract is--we call it 
upsidedown, where essentially the revenues that are expected 
over the life of that contract can't support the burden of the 
LSI investment that would need to be made by an incoming 
concessioner.
    Mrs. Lummis. I would ask the other panelists to respond to 
that concern about a contract getting upsidedown. Would anyone 
care to comment on that?
    Mr. Klein. I would. Alex Klein, Grand Teton Lodge Company 
and Flagg Ranch.
    I agree with the conundrum, but I don't see an obvious fix 
to it. These are large facilities. They have----
    Mrs. Lummis. Yeah.
    Mr. Klein. --significant infrastructure, and they require 
investment. And it becomes a circular problem. We can't invest 
in the facilities because we don't want to increase the LSI in 
order to make the contracts more competitive, and then that 
circle continues.
    And I think we need to find a way, collectively, to break 
that cycle. And, from time to time, I think embracing 
additional LSI may actually be in the best interest of both 
parties.
    Mrs. Lummis. Okay.
    Anyone else care to comment?
    Mr. Belland?
    Mr. Belland. Yes. Chris Belland, HTA.
    In business--and I keep, you know, talking about business 
and the National Park Service, and I don't think they are 
exactly enemies or antithetical--you have what is called the 
return of capital and return on capital. And to get somebody to 
invest in these properties, they have to be assured of two 
things: A, they are going to have enough time to amortize those 
costs; and, B, there are going to be some profits involved to 
justify the risk.
    And I think that comes back to what I said before about 
rewarding the good efforts of your concessioners with contract 
extensions and to give them flexibility to change their 
business model as the contract proceeds.
    Mrs. Lummis. Mr. Klein, turning specifically to Grand Teton 
National Park, you speak highly of the National Park Service 
staff that you deal with.
    How important is that relationship in ensuring the 
successful park operations? And how can it be improved in parks 
that are not as blessed as Grand Teton?
    Mr. Klein. Madam Chair, our relationship, I don't think 
it's unique, but I do take great pride in the relationship that 
we've had in Grand Teton National Park. I think on both sides 
we view it as a partnership. We have shared mutual goals. We 
communicate effectively. You know, from time to time, we may 
disagree on a certain point, but I think that's a matter of 
just doing good business.
    And, you know, that local relationship, I think, is very 
important. And I think we have some people in our national 
park, on the concessions management staff and in 
administration, including the Superintendent and the Deputy 
Superintendent, that I would loosely term as progressive in the 
National Park Service, that they are open to new ideas.
    And I documented a few items in my testimony that I think 
are progressive in the National Park System. We have had some 
significant success. I would just like to see that grow.
    And I think, in some cases, the relationship is not viewed 
as a partnership. It's viewed somewhat as adversarial and an 
oversight matter. And I think if we truly do embrace this 
partnership, I think together we can move forward.
    Mrs. Lummis. Well, thank you, panel.
    The chair provided herself a very generous 5-minute clock. 
She will do the same with the ranking member. Mrs. Lawrence is 
recognized for 5 minutes.
    Mrs. Lawrence. Thank you, Madam Chair.
    I have a few questions, but I just want to make the 
comment, you know, I continuously state that I was previously a 
mayor of a city, and I use the term often that a pothole does 
not have an ``R'' or ``D'' on it, it just needs to be fixed. 
And I like that analogy of our parks do not have R's or D's on 
them.
    I wanted to ask the question--and, Madam Chair, if you 
would allow me to enter into the record a statement from John 
Garder, who is the director of budget and appropriations for 
the National Parks Conservation Association.
    Mrs. Lummis. Without objection, so ordered.
    Mrs. Lawrence. I wanted to ask a question of Ms. McDowall.
    In the statement from Mr. Garder, he talks about those 
extenuating circumstances like wildfires, flooding in our 
national parks and the impact it has on our budget.
    Can you talk to me about how that is budgeted for the 
national parks, and is that a challenge?
    Ms. McDowall. How the Park Service covers the cost of those 
types of events?
    Mrs. Lawrence. Yes.
    Ms. McDowall. One moment.
    So we do have emergency authority to deficit-spend. We 
don't save up for those kinds of events. We don't keep----
    Mrs. Lawrence. So it is not budgeted.
    Ms. McDowall. Right.
    Mrs. Lawrence. Okay. That is interesting.
    Hornblower Cruises operates boat tours to iconic 
destinations. And if you are the same cruise, I have used it in 
Niagara Falls. But we have heard complaints that the Park 
Service has refused to extend the operating hours to these 
monuments in spite of overwhelming public demand for change.
    Mr. MacRae, please tell me more about these issues, and 
discuss whether your company has requested an extension for 
your services to these locations. And what has been the 
National Park Service response?
    Mr. MacRae. So, at the Statue of Liberty, we have just 
recently had some extension of our operating hours. Generally 
speaking, the last tickets are sold in midafternoon, in the 
city that doesn't sleep at all. It's sometimes a staffing 
question. It's sometimes thought of as a budget question, 
although the payments for franchise fees will pretty much 
support any operating hours at that location.
    So there has been some movement in that. We had an evening 
program several years ago that was discontinued but not for 
lack of demand. So the park has been receptive there to some 
movement, although, considering how large the opportunity is, 
it's a glacial pace to expand visitation that way.
    Alcatraz, we have had some opportunity to expand shoulder 
season definitions. We went from having three seasons to having 
two seasons. We can run 14 cruises a day during the busy season 
and 10 during the winter. The fact of the matter is Alcatraz is 
virtually sold out all the time. We could probably have 50 
percent more, maybe 100 percent more visitors there than we 
actually have.
    And there's a lot of different reasons. Some, you know, can 
be overcome through change in programming and change in 
facilities. I just think, generally speaking, the parks are not 
as driven to find ways to increase visitation because they 
don't operate off of that budget.
    Mrs. Lawrence. Mr. Belland, your company, Historic Tours of 
America, experienced similar issues, and, if I'm not mistaken, 
it was stated that it took nearly 2 years to resolve. Can you 
tell me why it took so long? What was your experience?
    Mr. Belland. Do we have the rest of the day?
    Well, again, this is our first concession, and our 
experience in working with the parks was rather new to the 
game. I worked with the local guy at Everglades, Dan Kimball, 
who is now retired, and, boy, he thought it was a great idea. 
He said, I'm going to make this my legacy contribution to the 
Dry Tortugas, because it makes sense.
    I mean, as I said before, the general management plan of 
350 was never met. There just weren't enough people going out 
there. We had the capacity, and people wanted to go. So it 
seemed a very logical thing. But this thing went up to Atlanta, 
then it went from Atlanta to Washington, then back down to 
Everglades. And it was back and forth so many times, I've got a 
whole sheath of documents, you know, of letters and emails 
going back and forth trying to get this done.
    And it was something, as I said before, I think it really 
should have been delegated to a lower level than Washington, 
D.C. The people in Atlanta certainly know what to do in this 
regard. And I can tell you that the folks in Everglades did 
too. It was just a no-brainer thing. It had no impact on the 
asset and a minimal impact on staffing, so why not?
    Mrs. Lawrence. If you will allow me to ask just one more 
question, Madam Chair.
    Ms. McDowall, you have heard the comments made from these 
two. What has the National Park Service--have you analyzed it? 
Have you identified it? And is there any movement to change the 
processing so that we can cut down that turnaround time?
    Ms. McDowall. So there are a number of things that the Park 
Service is doing, particularly for smaller contracts, to try to 
streamline the request-for-proposal process and the contracting 
process.
    I think when it comes to the process for trying to make 
changes in services during the life of a contract, the Park 
Service is trying to be as flexible as possible 
administratively within the constraints of the law to make 
changes to services.
    I think that the constraint we are operating under is 
that--and forgive me, I don't have the clause memorized--there 
are some clauses within the law that talk about the Park 
Service needing to issue a new prospectus if they are going to 
expand services or add new services during the life of a 
contract.
    So the Park Service is very careful about where that line 
is. And I think some of that frustration you hear from 
concessioners, I think commercial services people in parks 
share those same frustrations. Ten years, 15, 20 years is a 
long time on a contract, and things do change, but we don't 
have a great deal of flexibility to make significant changes 
during the term of a contract. And part of the back-and-forth 
is working with the lawyers to determine what is significant.
    Mrs. Lawrence. Thank you, Madam Chair.
    Mrs. Lummis. I thank the gentlelady and recognize the 
gentleman from Alabama, Mr. Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairlady.
    Ms. McDowall, I'm going to ask you a little bit about the 
backlog that you have in deferred maintenance and some of the 
infrastructure issues that the Park Service now faces.
    What steps is the Park Service taking to address this 
backlog?
    Ms. McDowall. So I think we have done a number of things. I 
think the work that's been done to get a handle on what the 
backlog is in the first place was the first significant move, I 
think.
    You're seeing the Park Service now really focus its 
attention and resources on our high-priority, nontransportation 
deferred maintenance, those facilities that really are 
important for serving visitors, and working on ways to direct 
funding----
    Mr. Palmer. Let me ask you----
    Ms. McDowall. --to those facilities. Yes?
    Mr. Palmer. I'm going to get to some specific things here, 
maybe even generate some ideas.
    But when you say the significant, what would those be? 
Would it be anything from a visitor facility to a road or a 
bridge?
    Ms. McDowall. So nontransportation are the----
    Mr. Palmer. Okay.
    Ms. McDowall. --things that I'm focusing on. So things 
like----
    Mr. Palmer. Would that include a ferry?
    Ms. McDowall. --visitor centers, bathrooms----
    Mr. Palmer. But when you say nontransportation, would that 
that exclude ferries?
    Ms. McDowall. So the Park Service doesn't own many ferries. 
I think we're talking about buildings, for the most part.
    Mr. Palmer. Okay.
    Ms. McDowall. Yeah.
    Mr. Palmer. All right.
    Ms. McDowall. And trails, to a lesser extent.
    Mr. Palmer. All right.
    One of the things that, looking through the background on 
this, is the leaseholder surrender interest. Is there a 
possibility that more private investment could help address 
some or maybe even a significant portion of the infrastructure 
improvement needs?
    Ms. McDowall. I think in some of the concession-managed 
assets there is certainly a role for the private sector. I 
think you see that in some of the longer concessions contracts 
that we have recently issued and that we're about to issue. 
There's the large lodging contract at Yellowstone that's 15 
years that has a great deal of private investment associated 
with it.
    Mr. Palmer. Okay. Does the Park Service own the lodge, or 
is that a private----
    Ms. McDowall. The Park Service does own the facility.
    Mr. Palmer. Is there any possibility that you could have a 
public-private partnership or a private entity own the lodge?
    Ms. McDowall. I don't immediately know the answer to that.
    Mr. Palmer. That's one of the things that I would think you 
might want to consider in addressing some of the backlog. And, 
again, if you take a look at the leaseholder surrender 
interest--and we could work out some arrangement where private 
entities own the facilities, and then the contract or the 
agreement was structured in such a way that, over the long 
term, they would be able to not only recover their investment 
but earn a profit, it might take some of the burden off of the 
Park Service.
    Mr. MacRae or Mr. Klein or Mr. Belland, do you have any--
and this is just in the context of some ideas that might help 
solve some of these problems and make your job a little bit 
easier.
    Mr. MacRae?
    Mr. MacRae. Mr. Palmer, I could speak to that for a moment.
    One of the things that the 1998 act did do is provide for 
the ability to do some leasing. So, from a practical 
standpoint, some of the projects and opportunities that require 
a much longer amortization period than is available under the 
concession contract could probably best be handled by leasing. 
And, frankly, it might be a nice bridge between figuring out 
what the LSI solution is, because you do need a long period of 
time to amortize some of these investments, and it's really not 
provided, the capability to do that, within a shorter 
concession agreement.
    So, clearly, the leasing channel is one. And in the Golden 
Gate National Recreation Area, we have two examples of that. 
One is the Argonaut Hotel, and one is Cavallo Point. So the 
Park Service does have assets that can be leased. And probably, 
with, you know, some urging and some direction, they would 
probably do more of them.
    Mr. Palmer. Well, my perspective is that, when you have a 
private interest in something and you basically own it, you've 
got more motivation to invest in it, keep it up. And I think it 
helps on the concession side. It helps in attracting visitors.
    I want to go back to Ms. McDowall on the fees.
    The inspector general's office laid out some specific 
recommendations, some of which you have handled well. Where are 
you in the process of increasing the fees?
    Ms. McDowall. So we have finished, for the most part, the 
public engagement process that we go through before we make a 
decision to raise fees. Most parks that did engage in that 
conversation with the public have decided to raise fees, maybe 
not quite as much as they had proposed, but many of them are 
raising fees. I think we started seeing increases back in 
February. And most parks that were going to raise fees have 
raised them so far, usually after Memorial Day, at the 
beginning of the season.
    Mr. Palmer. All right.
    Ms. McDowall. So we are moving forward.
    Mr. Palmer. Well, my time has expired. I would just like to 
conclude with this, to encourage the Park Service to look at 
these public-private partnerships going forward as maybe a part 
of the solution.
    Thank you, Madam Chairman.
    Mrs. Lummis. I thank the gentleman.
    And the chair now recognizes the gentleman from Colorado, 
Mr. Buck, for 5 minutes.
    Mr. Buck. Thank you.
    Ms. McDowall, what law are we talking about? You have 
mentioned ``the law'' a number of times. Could you tell me a 
code section, if you have it?
    Ms. McDowall. It's the Concessions Management Improvement 
Act of 1998.
    Mr. Buck. Okay.
    And, specifically, you mentioned some of the parts of the 
law that are constraining you. Can you give me some more 
details?
    Because I think one of the things that we all want to do on 
this committee is try to help you gain that flexibility, and, 
if there is a statutory remedy, I think we all want to try to 
look at that.
    Ms. McDowall. So the way that the law lays out the request-
for-proposal process, it requires the Park Service to be very 
detailed at the front end about the services that should be 
provided and the structure of the contract. So there's not 
really much of an opportunity for negotiation.
    In the private sector, you might--or even in an airport 
concessions process, they might have a two-part process, where 
they find qualified bidders, and then they actually negotiate 
with them to talk about what kinds of services the various 
offerors might provide.
    The Park Service can't really do that under this law. We 
have to evaluate and decide at the front end what services 
should be offered. That goes into an RFP. And the bidders have 
to bid on a contract that's almost completely set in the RFP. 
There's not much room to maneuver after we select an offeror.
    Mr. Buck. So you have mentioned a contract model. Is it 
that the FAA has? Or what----
    Ms. McDowall. So some of the things or some of the examples 
of more flexible models would be the types of leases that Mr. 
MacRae mentioned. Managing agreements are common in the hotel 
industry.
    Neither of those are real options under the concessions 
law. We do have leasing authority, but it specifically does not 
allow the Park Service to enter into a lease when a concessions 
contract is what we should use.
    Mr. Buck. Okay.
    Any other areas of flexibility? Obviously, you are dealing 
with lodging, you are dealing with food services, you are 
dealing with a number of different areas. I would imagine each 
of them needs a separate type of flexibility.
    Ms. McDowall. Right. They are all very unique. And I think 
having the ability to mix and match different contract types, 
change the way the terms are constructed for various business 
opportunities, would be valuable.
    Mr. Buck. Okay.
    Ms. McDowall. We have a one-size-fits-all approach right 
now.
    Mr. Buck. Who are the best people to talk to at the Park 
Service to try to deal with developing a different model or 
looking at different models and trying to apply them?
    Ms. McDowall. It would be the Commercial Services Program 
within the Chief Financial Officer's program of----
    Mr. Buck. And you know those folks well.
    Ms. McDowall. Very well.
    Mr. Buck. Okay.
    I have no further questions. I yield back.
    Mrs. Lummis. Well, I thank the gentleman and would ask the 
panel if they would be willing to entertain a lightning round, 
where we each get one question and one question only and 
alternate.
    Without objection, we will take that approach, and the 
chair recognizes herself for one question.
    Ms. McDowall, are these contracting--the attorneys that--or 
people who draft these prospectuses--for example, I have been 
told, at Denali, they even specify within the prospectus 
application different prices for soft drinks in different parts 
of the park. That sounds like micromanagement to such an 
extreme that you can visualize a 1,600-page contract. You can 
also visualize a less efficient bidding process when that kind 
of specificity is included in the prospectus application.
    Is that normal, and do all of them have that type of 
specificity? And doesn't that seem--how can we ferret out that 
kind of micromanagement from the contracting process and really 
get down to the type of contracting that would benefit the Park 
Service as well as the applicants?
    Ms. McDowall. So there are things that we are doing to 
reduce the amount of specificity that's required on those types 
of things.
    There is an approach called core menu, where Washington has 
been very encouraging for parks and regions who are developing 
contracts to really only look at a small subset of items on a 
particular menu, for example. And the Park Service would 
approve rates on those items, maybe five, six, seven items on a 
menu, and the rest of the menu items are available for the 
concessioner to price however they would wish.
    Washington does not dictate to every park and every region 
exactly how they should structure their contract. It's a very 
decentralized organization. We leave a lot of local discretion 
to the field.
    And so, even though that flexibility is there, we do still 
have circumstances where I think there is probably more 
specificity than is required.
    Mrs. Lummis. Thank you.
    Mrs. Lawrence?
    Mrs. Lawrence. Thank you, Madam Chair.
    We have spoken about the centennial coming up. The House is 
considering an appropriation bill that would increase the Park 
Service's budget by roughly $50 million this year. That is a 
good start, but, given the importance of the upcoming 
centennial year and the substantial funding challenges that the 
Park Service is facing, is that enough?
    So my question to you, Ms. McDowall: What is the Park 
Service planning to do to make sure our parks are ready for the 
centennial? And--it was only supposed to be one question. What 
are you doing, and will you have the funds to do it?
    Ms. McDowall. So I think you're right, the $50 million 
isn't going to get us all the way there. It will certainly 
help. Raising fees helps. I think having more money available 
for facilities will help.
    And then I think, outside the financial realm, I think 
there are a lot of--there's a lot of work being done in the 
Park Service about the kinds of programs that we offer. I think 
there are certainly things we can do, working with our 
concessioners, to look at different types of visitor services 
that could be offered that are the types of services that 
visitors are expecting in this day and age that will help us be 
ready for what we hope is a large influx of visitors and 
different visitors than we've had in the past.
    Mrs. Lawrence. Thank you.
    Mrs. Lummis. The chair recognizes Mr. Palmer.
    Mr. Palmer. Mr. MacRae, in your testimony, you talked about 
that park visitation has been unchanged over 25 years despite a 
30-percent increase in the population of the United States. And 
you raised some concerns that, if you deducted the number of 
visitors to the World War II Memorial and the newer monuments, 
that, really, park visitation is down below 1987 numbers. Can 
you elaborate on that a little bit?
    Mr. MacRae. The population of the country has grown 
significantly over time. The visitation to the parks have not 
grown over that same period.
    If you think of the parks as, you know, 400 units that host 
300 million visitors a year, a $3 billion budget--and there's 
not a chief marketing officer. The word ``marketing'' in the 
parks, frankly, until Director Jarvis came along and was 
willing to use it, you know, in public, was a verboten word 
there. ``Promotion,'' of course, is in the act, so they 
recognized the need for promotion. But the parks have an 
amazing brand, and they have amazing assets, and they have a 
huge number of visitors that want to come but don't know much 
about it. So there's some great opportunities to join with the 
National Parks Promotion Council and the National Park 
Foundation and BrandUSA to promote the parks.
    And, frankly, the visitation within the parks hasn't 
reflected the change in our population either. So there's some 
work that needs to be done there, and the Park Service, I 
think, has recognized that. And the centennial has given them 
some opportunity to focus on it and try to find a way forward 
there. And we really encourage that and support that, as 
concessioners.
    Within our parks, of course, we go out and promote the 
parks where we provide services, but that still leaves 300 
parks that don't have anybody promoting them, so--huge 
opportunity there, in our view.
    Mr. Palmer. It sounds like we need a major marketing plan. 
Thank you.
    Thank you, Madam Chair.
    Mrs. Lummis. Thank you, Mr. Palmer.
    Before I close the hearing, I want to give each of our 
panelists one last question and one last chance to close. And 
so I like to close hearings by asking any of the panelists to 
respond to a question you wish you would have been asked. So 
the chair will recognize each panelist for kind of a closing 
statement.
    Mr. Belland, you are recognized first.
    Mr. Belland. Well, that's interesting.
    You know, it's hard to sit here in this limited amount of 
time and talk about all the things that we have experienced as 
concessioners. I want to reiterate the comments of my fellow 
panelists by saying that we work with an extraordinary group of 
people who are absolutely dedicated to the prospects of the 
National Park Service mission.
    They, as much as we, have our hands tied. Listening to Ms. 
McDowall's comments about being able to change contracts, you 
know, to me, put in a more simple way, which is what I was 
confronted with--and it was never said to me--was that, after 
you get a contract, after you win the award, they really can't 
negotiate with you.
    And the reason for that is that the National Park Service 
is wary--I won't use the word ``afraid'' because I don't think 
you're afraid of anything--but they're wary of another bidder 
coming back and saying, oh, well, if you'd let me do that, you 
know, I could have--blah, blah, blah. And they're afraid of 
those lawsuits, and I understand that.
    But I think there has to be a modicum of common sense 
brought to the National Park Service in a businesslike fashion 
that will allow it to be flexible over these contracts. 
Because, as I said, things change, big things change, and you 
have to be able to change direction as you need to.
    And, again, you have partners working for you, with you, 
that are willing to toe the line and do the right thing. I 
mean, it's in all of our best interests to promote the parks, 
provide the very best service we can. Because we are facing 
right now, as Congressman Palmer said, we are facing a crisis 
of attendance, and we have got to find a way to make the 
National Park Service relevant in this technological age. 
Because they say, if a child does not go camping by the time he 
is 16, he will never go camping in his life. Now, that's not 
the generation that I grew up with. And I grew up in the age of 
no television, and now every kid walks around with a television 
in his hand.
    And so we have to seek ways, I think, to your point--I 
think the question is, what can we do together to make the 
National Park Service relevant for the next generation.
    Mrs. Lummis. Thank you very much.
    You are absolutely right about contracting. When I was 
State treasurer, we would issue RFPs and award external 
managers for money. And then, if there were substantial 
contract revisions, we would have disgruntled bidders after us. 
So you are absolutely right; it is difficult for government 
when you are dealing with big contracts like that.
    Thank you very much.
    Mr. Klein?
    Mr. Klein. Madam Chair, thank you for the opportunity once 
again.
    And thank you, Mr. Belland, for giving me time to think of 
a question I would have been asked.
    Mr. Belland. You're welcome.
    Mr. Klein. You know, I think there's many questions. And, 
to Mr. Belland's point, you know, we haven't had the 
opportunity to speak at length about the many issues that I 
think we do need to address over time.
    But, representing Grand Teton Lodge Company, a company that 
was started by John D. Rockefeller, Jr., you know, really just 
prior to the formation of the park itself, the same individual 
that donated the land, I think about whether or not these 
wonderful assets that, Madam Chair, you've enjoyed on many 
occasions--Jenny Lake Lodge, Jackson Lake Lodge, Colter Bay 
Village--you know, whether that type of ingenuity and those 
types of visitor accommodations and fine dining and the 
wonderful trips that we provide to people on the Snake River 
and the wonderful cookout sites we have on Oak Island, were the 
rules the same in 1955 when these lodges were being built and 
put together and the visitor services determined, unfortunately 
I think in today's day and age that would not have happened, 
and we'd be left with a park that didn't have these facilities 
that really enhance the visitor experience.
    To stay in a room at Jackson Lake Lodge that has a view of 
the Tetons is a once-in-a-lifetime experience. To float on the 
Snake River on one of our float trips is just an unbelievable 
way to see wildlife in its natural habitat. And I think, 
unfortunately, with the current process, that type of ingenuity 
and new services and new facilities really aren't feasible and 
possible today.
    Thank you once again.
    Mrs. Lummis. Thank you. And I never tire of that visitor 
experience. I have been doing it since I was a little girl and 
hope to, God willing, be able to do it until I am no longer 
around.
    Thank you, Mr. Klein.
    Mr. MacRae?
    Mr. MacRae. Thank you, Madam Chairman.
    I would say a simple way to think about it is, if you put 
the folks that are responsible for preserving thousands-and-
thousands-of-year-old trees and hundreds-and-hundreds-of-year-
old structures into the job of preserving the contracting 
system in the National Park Service, you probably won't get it 
modernized.
    Getting business folks in that have some of that background 
and training, which they have been doing--so there's some great 
movement in that area. You know, it's a big ship with a small 
rudder, and you have to turn that rudder sooner and faster.
    And I believe the Park Service recognizes many of these 
challenges. And, frankly, if the shackles associated with 
either their culture or the laws, the things that are 
preventing them from moving forward, were taken off, I think 
the progress would be amazing.
    So, great opportunities ahead. And I think the 
concessioners certainly want to be a part of that and are, you 
know, looking at every possibility to find ways to collaborate 
with the National Park Service to do that.
    Thank you.
    Mrs. Lummis. Thank you, Mr. MacRae.
    And, with all eyes on the Park Service for the next year, 
as it celebrates its 100th, it really is an opportunity to 
address some of these issues, while we are all acknowledging 
the great pride that we have in the National Park Service.
    Ms. McDowall, you are our final speaker today.
    Ms. McDowall. Thank you.
    I think, just in general, the Park Service, of course, is 
interested in doing anything we can to do better at 
accomplishing our primary mission, which is meeting visitor 
needs and protecting resources.
    And, to follow up on Mr. MacRae's point, I think there are 
a lot of things the Park Service can do and is doing to improve 
business acumen within the Park Service, by bringing in new 
staff, by better training for the ones that exist, both to 
better manage parks and to be better partners with our private-
sector contractors.
    And I would also be remiss if I did not mention a question 
that I wish I'd been asked, was what marketing campaigns is the 
Park Service running in order to prepare for its next century. 
And I forgot to mention our Find Your Park campaign that has 
been running with the National Park Foundation, which is a 
major marketing and outreach push to invite new members of the 
American public to come to parks. And I think we're hoping that 
that effort bears a lot of fruit.
    Thank you.
    Mrs. Lummis. I want to thank Mrs. Lawrence, Mr. Palmer, and 
other members of the committee. And I want to thank our 
panelists and guests for being here today and for sharing your 
experiences and ideas with us.
    I would also like to enter into the record statements from 
the following organizations: David Woodside, president of the 
Acadia Corporation; John King, regional vice president of 
Forever Resorts; Pamela Pitts, secretary of the California 
Parks Company; Tim Rout, CEO of Dyno Ventures, Forever Resorts, 
Gettysburg Tours, and TRF Concession Specialists of Florida; 
and John Garder, director of budget and appropriations at the 
National Park Conservation Association.
    Without objection, so ordered.
    Mrs. Lummis. Again, thank you, witnesses, for taking the 
time to appear before us today. This hearing was one of the 
more enjoyable and enlightening and caused us to think about 
some opportunities legislatively and with regard to our 
stewardship of our great National Park System. So thank you 
kindly.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 10:17 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
               
              
               

                                 [all]
</pre></body></html>
